           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Notification of Audit of                      Date:    August 31, 2004
           Physical Security of Federal Aviation
           Administration Facilities
           Project No. 04B3010B000

  From:    Alexis M. Stefani                                       Reply to
                                                                   Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Assistant Administrator
            for Financial Services/CFO, ABA-1

           The Office of Inspector General is initiating an audit of Physical Security of Federal
           Aviation Administration (FAA) Facilities. The audit objective is to evaluate the
           adequacy of physical security at FAA facilities. Specifically, we will evaluate the
           (1) security processes and standards that are applied to FAA facilities, (2) access controls
           to FAA’s staffed and unstaffed National Airspace System critical facilities, and
           (3) security at staffed FAA facilities to ensure that contract security company employees
           meet FAA’s requirements for security training and weapons qualifications.

           The audit will be conducted at FAA’s Headquarters in Washington, DC, selected regional
           and field offices, and selected FAA facilities nationwide. Our staff in Washington, DC,
           and San Francisco, California, will conduct the audit.

           We plan to begin the audit the week of September 20, 2004. We will contact your audit
           liaison to arrange an entrance conference. If you have any questions or need additional
           information prior to the entrance conference, please contact me at (202) 366-1992 or
           Ms. Robin K. Hunt, Deputy Assistant Inspector General for Hazardous Materials,
           Security and Special Programs, at (415) 744-3090.

                                                        #

           cc: Assistant Administrator, Office of Security
                and Hazardous Materials, ASH-1
               Willie Gripper, AHS-1
               Tom Ryan, AIN-1
               Steve Keenely, ASN-1
               Anthony Williams, ABU-100
               Martin Gertel, M-1
